<html>
<title> - H.R. 4807 and H.CON.RES. 408</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                     H.R. 4807 and H.CON.RES. 408
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 12, 2002

                               __________

                           Serial No. 107-125

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                           U.S. GOVERNMENT PRINTING OFFICE
80-159                            WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 12, 2002....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Underwood, Hon. Robert A., a Delegate in Congress from Guam..     3

Statement of Witnesses:
    Gloman, Nancy, Chief of the Division of Conservation Planning 
      and Policy, National Wildlife Refuge System, Fish and 
      Wildlife Service, U.S. Department of the Interior..........     4
        Prepared statement on H.R. 4807..........................     6
    Kilby, William, President, Cecil Land Trust, Collora, 
      Maryland...................................................     7
        Prepared statement on H.R. 4807..........................    10
        Letter submitted for the record from Wayne H. Bell, 
          Ph.D., Center Director, Washington College, Center for 
          the Environment and Society............................    11
    Pittenger, David, Executive Director, National Aquarium in 
      Baltimore, Maryland........................................    22
        Prepared statement on H.Con.Res. 408.....................    24
    Rapp, James L., Director, Salisbury Zoological Park. 
      Salisbury, Maryland, on behalf of the American Zoo and 
      Aquarium Association.......................................    17
        Prepared statement on H.Con.Res. 408.....................    20

Additional materials supplied:
    Busby, Virginia R., Department of Anthropology, University of 
      Virginia, Charlottesville, Virginia, Letter submitted for 
      the record.................................................    30


  LEGISLATIVE HEARING ON H.R. 4807, THE SUSQUEHANNA NATIONAL WILDLIFE 
REFUGE EXPANSION ACT; AND H.CON.RES. 408, HONORING THE AMERICAN ZOO AND 
  AQUARIUM ASSOCIATION FOR THEIR CONTINUED SERVICE TO ANIMAL WELFARE, 
      CONSERVATION EDUCATION, CONSERVATION RESEARCH, AND WILDLIFE 
                         CONSERVATION PROGRAMS

                              ----------                              


                        Wednesday, June 12, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order.
    We have two pieces of legislation this afternoon. The first 
bill is H.R. 4807, the Susquehanna National Wildlife Refuge 
Expansion Act, and the second bill is House Resolution 408 
honoring the American Zoo and Aquarium Association and its 
accredited institutions for their continued service to the 
United States and the rest of the world.
    I ask unanimous consent that my statement be submitted for 
the record, and what I would like to do is very briefly 
summarize.
    The first bill deals with a rather magnificent place on the 
Susquehanna River, the headwaters of the Chesapeake Bay known 
affectionately to local people in Cecil and Hartford County as 
Garrett Island. It has been settled to some degree since the 
1600's. It is now a place of refuge for a myriad of wildlife of 
which I would be very happy to help, with the Kilby family, 
host the Fish and Wildlife Service people to paddle out to 
Garrett Island on a trusty Old Town canoe, walk around the 
island and see its magnificence.
    What we would like to do--and Mr. Kilby will expound upon 
this. He is the one person who has been a strong advocate. And 
certainly to develop a refuge system, Fish and Wildlife 
understands the need for them throughout the country for 
ecological and refuge purposes. The local community is in great 
favor of this island being preserved.
    There are a number of other things happening in the region, 
one of which is a conservation corridor from Virginia to 
Pennsylvania. That is a forested corridor that we are looking 
to preserve habitat for wildlife--the full range of wildlife 
that a particular ecosystem can support in this region of the 
United States and, in particular, neotropical migrating birds, 
waterfowl, anywhere from woodchucks to fox and beaver and deer 
and osprey.
    Osprey, for example, and bald eagles make their homes on 
Garrett Island, so a conservation corridor on the land and an 
island corridor throughout the Chesapeake Bay watershed, 
including Susquehanna river. This is one of the capstones of 
that particular concept.
    We look forward to the hearing today to listen to Mr. Kilby 
and the people from Fish and Wildlife, and we also want to 
thank Jim for coming back here again. You were here a couple of 
weeks ago, and we thank the American Zoo and Aquarium 
Association for all of the things they have done to serve this 
country in understanding and appreciating the rather dynamic 
complex organisms that populate the planet and their 
relationship in the ecosystems.
    One of the things that I think Garrett Island could be 
useful for is an ecological study area for local schools that 
the Baltimore Zoo could take advantage of as a field site. 
Certainly the Salisbury Zoo could come up and play a role in 
the northern part of the shore as a field study area to 
understand, let us say, the mechanisms of the brain of an ant, 
which is some pretty extraordinary things that Ian Wilson has 
done for a number of years. But instead of traveling to Brazil 
to do that, we can do that on Garrett Island.
    Anyway, Jim, we appreciate your attendance here this 
afternoon; and at this point I yield to the gentleman from 
Guam, Mr. Underwood.
    [The prepared statement of Mr. Gilchrest follows:]

Statement of The Honorable Wayne T. Gilchrest,, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good afternoon, today, the Subcommittee will conduct a hearing on 
two pieces of legislation which I have sponsored. The first bill is 
H.R. 4807, the Susquehanna National Wildlife Refuge Expansion Act.
    As the Co-Chairman of the Susquehanna River Basin Task Force, I was 
pleased to introduce this measure to designate Garrett Island as a unit 
of the Susquehanna Refuge. I have visited Garrett Island on several 
occasions and its rich history, geographic location and wildlife 
resource values must be preserved for future generations.
    Garrett Island was the site of Maryland's second settlement in the 
1600's, it is the only rocky island in the tidal waters of the 
Chesapeake Bay system and it is a link between the river and the bay. 
According to one of its current island owners, ``people tend to take 
places like this for granted until they're about to lose them''.
    Until the terms of my legislation, the Secretary of the Interior 
would purchase the island from existing funds and it would be managed 
as a component of the Susquehanna National Wildlife Refuge. The 
purposes of the refuge unit would be to support the conservation 
corridor demonstration program, to conserve, restore and manage 
habitats and aquatic resource values, achieve the objections of the 
Chesapeake 2000 Agreement, conserve the archeological resources of the 
island and permit appropriate public access.
    The second bill we consider is H.Con.Res. 408, honoring the 
American Zoo and Aquarium Association (AZA) and its accredited 
institutions for their continued service to animal welfare, 
conservation research, and wildlife conservation programs.
    AZA facilities have been in the forefront in maintaining animals in 
public display. They have developed and implemented the highest of 
standards for the care and maintenance of these animals. The U.S. Fish 
and Wildlife Service and the National Marine Fisheries Service 
recognize these standards as the ``professionally accepted standards'' 
on which public display facilities must base their education and 
conservation programs.
    Millions of Americans visit zoos and aquariums every day. For many 
of these visitors this is the only opportunity they will have to see 
marine mammals or other exotic species. Seeing these animals firsthand 
educates them on the needs of animals in the wild and can give them an 
appreciation for captive and wild animal populations they might not 
otherwise have. This personal interaction has grown into support for 
these facilities, through direct contributions and State and Federal 
funding, that allows AZA institutions to coordinate with academics, 
State, Federal, and international institutions to conduct premier 
research on captive and wild populations. The contributions made by 
these facilities through research and field conservation have helped 
maintain populations of African and Asian elephants, great apes, 
rhinoceros and tigers. In addition, a greater understanding of marine 
mammal populations has occurred and has helped in the rehabilitation 
and release of stranded marine mammals.
    I look forward to the testimony of the witnesses here today. I am 
now pleased to recognize the distinguished Ranking Democratic Member 
for any opening statement he may have on the legislation.
                                 ______
                                 

 STATEMENT OF THE HONORABLE ROBERT A. UNDERWOOD, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman; and if we can 
figure out the operations of the brain of an ant we can figure 
out a lot of things that go on around here.
    Thank you, Mr. Chairman. I look forward to this afternoon's 
hearing; and I will be brief in my remarks.
    You referred to the island as a magnificent island. I 
thought you were going to talk about the magnificent 
legislation that will help keep this island around forever.
    Our wildlife refuge system is one of the Federal 
Government's best-kept secrets and functions as our only 
network of lands and water set aside exclusively for the 
conservation of fish wildlife and plant resources. The 94 
million acres of habitat within the refuge system protects 
hundreds of endangered species and safeguards millions of 
migratory birds and conserves premier sports fisheries for over 
35 million Americans who visit the system annually.
    It is no surprise to me that the system has now grown to 
over 535 refuges located across the Nation. It is my 
understanding that President Bush's administration has decided 
that this legacy has expanded perhaps a little too much and the 
time has come to curtail any further expansion or additions to 
the refuge system. In light of the chronic operations and 
maintenance budget backlog affecting the refuge system, I can 
partly understand this reasoning. If you are struggling to 
maintain what you already have, why add to it?
    Nevertheless, such a change represents a significant and 
potentially troubling shift in policy. If this Subcommittee is 
to be able to fairly assess the merits of Chairman Gilchrest's 
legislation to add Garrett Island to the Susquehanna National 
Wildlife Refuge, the Administration is encumbered by the 
responsibility to first fully articulate and support the 
details of its new policy before we dispatch H.R. 4807 to one 
of many, many pieces of legislation that have good intentions 
but are not going anywhere. That is only fair.
    In addition, if it is the policy of the Administration to 
postpone any further expansion of the refuge system until the 
operations and maintenance backlog is rectified, I hope that 
the Administration would consider adjusting its own internal 
budget priorities to achieve this worthy goal and to allow the 
system to grow where needed in the future.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Gilchrest. Our first witness this afternoon is Ms. 
Nancy Gloman, Chief of the Division of Conservation Planning 
and Policy, National Wildlife Refuge System, U.S. Fish and 
Wildlife Service.
    Thank you for coming. Ms. Gloman, you may begin.

      STATEMENT OF NANCY GLOMAN, CHIEF OF THE DIVISION OF 
  CONSERVATION PLANNING AND POLICY, NATIONAL WILDLIFE REFUGE 
             SYSTEM, U.S. FISH AND WILDLIFE SERVICE

    Ms. Gloman. Mr. Chairman, I ask that my written statement 
be included for the record.
    Mr. Gilchrest. Without objection.
    Ms. Gloman. Thank you.
    Mr. Chairman and members of the Subcommittee, I am Nancy 
Gloman, Chief of the Division of Conservation Planning and 
Policy for the National Wildlife Refuge System. I appreciate 
the opportunity to provide views and comments on H.R. 4807 on 
behalf of the U.S. Fish and Wildlife Service. H.R. 4807 
authorizes the expansion of the National Wildlife Refuge to 
include Garrett Island. This undeveloped island, located in 
Cecil County, Maryland, has generated protection and 
acquisition interest from the Maryland Department of Natural 
Resources and the Cecil County Land Trust, a local 
environmental group. Before stating our views on the 
legislation, I would like to give you a brief summary of the 
Service's involvement in the Susquehanna River National 
Wildlife Refuge, our activities in the proximity of Garrett 
Island and what we currently know about the natural resources 
associated with the island.
    The Chesapeake Marshlands National Wildlife Refuge Complex 
includes Blackwater National Wildlife Refuge, Martin National 
Wildlife Refuge and Susquehanna National Wildlife Refuge. 
Susquehanna National Wildlife Refuge is located approximately 
100 miles north of the administrative office of the complex, 
which is in Cambridge, Maryland. The refuge was initially 
established as a Migratory Bird Waterfowl Closed Area because 
of its outstanding submerged aquatic vegetation habitat, which 
concentrated large numbers of diving ducks, primarily 
canvasbacks.
    With the disappearance of the expansive submerged beds in 
the 1970's, the Presidential Order creating the Waterfowl 
Closed Area was rescinded in 1978. This rulemaking left only 
Battery Island as the National Wildlife Refuge; Since that time 
Battery Island has eroded to about 1.5 acres in size, with very 
little habitat value for the Service's trust resources. 
Consequently, Susquehanna National Wildlife Refuge has not been 
a protection priority since 1978, is rarely visited by Service 
personnel, and in fact has been considered by the Service for 
transfer to some nongovernmental organization.
    Garrett Island is located in the Susquehanna River, 
approximately five miles north of what remains of the 
Susquehanna National Wildlife Refuge. Because it is mostly 
privately owned, the Service has not conducted a survey of the 
island to assess the Fish and Wildlife resource value. However, 
we have viewed the island from the water and noted a mature, 
predominantly hardwood forest with a rocky shoreline. In fact, 
I saw a nice picture of it, just before giving my testimony, 
that confirms that it is predominantly hardwood forest.
    The Service's Maryland Fisheries Resource Office has 
sampled the fishery resources in the Garrett Island vicinity 
and report that it supports a typical assemblage of fish that 
are expected in the river in that area. The Service's Division 
of Ecological Services reports no listed threatened or 
endangered species in the area, and the Maryland Department of 
Natural Resource's Heritage Program has no records of State 
threatened or endangered species.
    The Service has limited funds with which to purchase land 
and acquire easements and to provide protection and management 
to trust resources following the purchase. Therefore, the 
Service must be strategic in identifying lands for inclusion in 
the National Wildlife Refuge System and must set priorities for 
purchase. The Service recognizes that one of the most important 
challenges that we have in the land acquisition process is the 
development of integrated national and regional Fish and 
Wildlife goals.
    When planning acquisitions and setting priorities, the 
Service considers known sites of threatened or endangered 
species and communities; areas important to the ecological 
health of the land; areas that provide habitat corridors and 
areas that are priority for wildlife species. Other factors we 
look at are the size of the proposal, the relationship to 
existing wildlife refuges, and potential operations and 
maintenance costs, and also the relationship to species and 
habitat conservation plans. These acquisition priorities must 
be juxtaposed with the Service's ability to provide resources 
that are needed to administer these lands.
    The Service has an extensive list of possible acquisitions 
in the Northeast Region. Within the Chesapeake Bay, our highest 
priority is the Blackwater National Wildlife Refuge in 
Maryland. We are currently developing a comprehensive 
conservation plan for the Blackwater refuge that will consider 
whether to recommend enlargement of the boundary for that 
refuge. We are working in close cooperation with the State and 
local government and our other partners, of course; and 
continuing efforts in the area will allow us to link up 
important habitats providing valuable wildlife corridors, 
including the wildlife corridors that you talked about in your 
opening remarks.
    This Administration is committed to taking care of what we 
have. We have identified $1.1 billion in refuge operational 
needs and $663 million in pending maintenance projects for the 
National Wildlife Refuge System. In the Chesapeake Marshlands 
National Wildlife Refuge Complex alone, there are 35 deferred 
maintenance projects in our maintenance management system 
costing $1.7 million and 17 projects totaling $2 million in our 
priority Tier 1 refuge operational needs system.
    We are very appreciative that you and your constituents 
would turn to the Fish and Wildlife Service as custodians of 
Garrett Island. Unfortunately, given our priorities and funding 
constraints, we cannot support H.R. 4807. Nevertheless, the 
Service does offer a number of grant programs and other 
opportunities for technical assistance; and we would be more 
than willing to work with you, Mr. Chairman, your constituents, 
and the State of Maryland to identify various options and 
avenues for the protection of Garrett Island.
    Mr. Chairman, this concludes my prepared statement; and I 
would be pleased to answer any questions you may have.
    Mr. Gilchrest. Thank you, Ms. Gloman.
    [The prepared statement of Ms. Gloman follows:]

Statement of Nancy Gloman, Chief, Division of Conservation Planning and 
                Policy, National Wildlife Refuge System

    Mr. Chairman and members of the Subcommittee, I am Nancy Gloman, 
Chief of the Division of Conservation Planning and Policy for the 
National Wildlife Refuge System. I appreciate the opportunity to 
provide views and comments on H.R. 4807, on behalf of the U.S. Fish and 
Wildlife Service (Service). H.R. 4807, authorizes the expansion of the 
Susquehanna National Wildlife Refuge to include Garrett Island in the 
National Wildlife Refuge System. This undeveloped island, located in 
Cecil County, Maryland, has generated protection and acquisition 
interest from the Maryland Department of Natural Resources and the 
Cecil County Land Trust, a local environmental interest group. Before 
stating our views on this legislation, I would like to give you a brief 
summary of Service involvement in the Susquehanna National Wildlife 
Refuge, our activities in proximity to Garrett Island, and what we 
currently know about the natural resources associated with the island.
    The Chesapeake Marshlands National Wildlife Refuge Complex includes 
Blackwater National Wildlife Refuge, Martin National Wildlife Refuge, 
and Susquehanna National Wildlife Refuge. Susquehanna National Wildlife 
Refuge is located approximately 100 miles north of the administrative 
office for the Complex, which is located in Cambridge, MD. The refuge 
was initially established as a Migratory Bird Waterfowl Closed Area 
because of its outstanding submerged aquatic vegetation habitat, which 
concentrated large numbers of diving ducks, primarily canvasbacks.
    With the disappearance of the expansive submerged grass beds in the 
1970s, the Presidential Order creating the Waterfowl Closed Area was 
rescinded in 1978. This rulemaking left only Battery Island as the 
refuge. Battery Island has since eroded to approximately 1.5 acres in 
size, with little habitat value for Service trust resources. 
Consequently, Susquehanna National Wildlife Refuge has not been a 
protection priority since 1978, is rarely visited by Service personnel, 
and in fact, has been considered for excess by the Service, or transfer 
to a non-government conservation organization.
    Garrett Island is located in the Susquehanna River, approximately 5 
miles north of what remains of the Susquehanna National Wildlife 
Refuge. Because it is mostly privately owned, the Service has not 
conducted an on-site visit to Garrett Island to assess fish and 
wildlife resource values. However, Service personnel have viewed the 
island from the water and noted a mature, predominately hardwood forest 
with a rocky shoreline. The Service's Maryland Fisheries Resource 
Office has sampled the river in the Garrett Island vicinity and report 
a typical assemblage of fish species for the area. The Service's 
Division of Ecological Services has no records of Federally-listed 
threatened or endangered species in the area. The Maryland Department 
of Natural Resource's Heritage Program has no records of state 
threatened or endangered species.
    The Service has limited funds with which to purchase lands and 
acquire easements and to provide protection and management to trust 
resources following purchase. Therefore, the Service must be strategic 
in identifying lands for inclusion in the National Wildlife Refuge 
System, and must set priorities for purchase. The Service recognizes 
that one of the most important challenges in the land acquisition 
process is the development of integrated national and regional habitat 
goals and objectives. When planning acquisitions and setting 
priorities, the Service considers known sites of threatened or 
endangered species and communities; areas important to the ecological 
health of lands already owned (e.g., areas that protect the quality and 
quantity of water for wetlands, provide habitat corridors between 
existing conservation lands, or are of sufficient size of contiguous 
lands to protect viable populations); and, areas important for priority 
wildlife species (e.g., critical stopover habitat for migrating birds). 
Other factors considered include the size of the proposal, the 
relationship to existing refuges, potential operations and maintenance 
costs, and the relationship to habitat and species conservation plans. 
These acquisition priorities must also be juxtaposed with the Service's 
ability to provide resources requisite for adequate administration of 
potential new refuge lands.
    The Service has an extensive list of possible acquisitions within 
the Northeast Region. Within the Chesapeake Bay, our highest priority 
is the Blackwater National Wildlife Refuge in Maryland. We are 
currently developing a Comprehensive Conservation Plan for the 
Blackwater refuge that will include consideration of whether to 
recommend enlargement of the boundary of the refuge. We are working in 
close cooperation with State and local governments and partners in that 
process. Continued efforts in the Blackwater area will allow us to link 
important habitats providing valuable wildlife corridors.
    This Administration is committed to taking care of what we have. We 
have identified $1.1 billion in refuge operational needs and $663 
million in pending maintenance projects for the National Wildlife 
Refuge System. In the Chesapeake Marshlands National Wildlife Refuge 
Complex alone, there are 35 deferred maintenance projects in our 
Maintenance Management System at a cost of $1.7 million and 17 
projects, totaling $2 million in our priority Tier 1 Refuge Operational 
Needs System.
    We are appreciative that you and your constituents would turn to 
the Fish and Wildlife Service as custodians of Garrett Island. 
Unfortunately, given our priorities and funding constraints, we cannot 
support H.R. 4807. Nevertheless, the Service does offer a number of 
grant programs and other opportunities for technical assistance, and we 
would be more than willing to work with you, Mr. Chairman, your 
constituents, and the State of Maryland to identify the various avenues 
for protection of Garrett Island.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to respond to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. I would like to recognize Mr. Bill Kilby 
from Cecil County, dairy farmer extraordinnaire, who has 
pursued with his family a lifetime of improving agricultural 
practices and preserving the landscape in that most precious 
part of our State. Mr. Kilby.

    STATEMENT OF WILLIAM KILBY, PRESIDENT, CECIL LAND TRUST

    Mr. Kilby. Thank you, Mr. Chairman.
    The Cecil Land Trust is a 4-year-old, all-volunteer 
nonprofit with the mission to preserve farmland, woodland, 
natural habitats and historical rural communities and to 
provide assistance to those interested in land conservation.
    We have working agreements with the Maryland Environmental 
Trust and The Conservation Fund. We have five donated 
easements, a 16,000-acre rural legacy area, an outreach program 
that has produced three studies, including an Ag Land 
Preservation and Protection Task Force report and a Farm Link 
Program. Our interest in the permanent protection of Garrett 
Island comes from our role of providing assistance to those 
interested in land conservation.
    Over 2 years ago, we were approached by two conservation-
minded individuals who were concerned about Garrett Island 
being sold for yet another development scheme. With each sale, 
the price is increasing. They asked for our help.
    A business arrangement, the Garrett Island Limited 
Liability Company, was formalized. It enables the Cecil Land 
Trust to purchase the interest of other members as funds are 
raised with the goal of permanent protection, public access and 
a comprehensive educational program. House bill 4807, to 
include Garrett Island in the Susquehanna National Wildlife 
Refuge, fits our vision of the island's future.
    We applaud Congressman Gilchrest for bringing to the 
attention of Congress that Garrett Island is both historically 
significant and ecologically unique. Its historical 
significance predates the establishment of the State of 
Maryland as the Virginia Company's most northernmost fur 
trading post in the Chesapeake Bay. Its history and prehistory 
represents every resource-based industry, and it is fitting 
that we should be here in this room.
    It represents agriculture, fur trading, fish packing, ice 
storage, logging and mining. Every one of those has taken place 
on the island for the past 400 years. It has witnessed the 
history of transportation from canoes to barges, and its land 
mass supports both a road and a railroad. Its uniqueness as a 
rock island in the tidal waters at the head of the Chesapeake 
Bay allows a walk of a half mile to take you from a tidal marsh 
to the summit of a 114-foot volcanic core.
    Since the Susquehanna River from the Conowingo Dam to 
Garrett Island is open most of the winter, it serves as a haven 
for many kinds of birds. The Audubon Society's New Year's Eve 
count has spotted 44 species, including 14 kinds of ducks and a 
number of eagles. Spring and fall migration also includes 
Canadian geese, common loons, the tundra swans. A cove on the 
island's southeast corner has an active heron roost. Havre de 
Grace High School students will be placing and monitoring wood 
duck boxes on the island for the many wood ducks that nest in 
the area.
    Both freshwater and anadromous fish are abundant around the 
island. Game fish include striped bass, large mouth, small 
mouth bass, white and yellow perch and catfish. One of the 
local groups that works with us, the Bassing Bunch fishing 
club, a group that has adopted the island as one of its 
projects, reports that the sand bar on the island south is an 
extremely important spawning ground for striped bass. The 
island also supports a year-round herd of about 20 deer.
    Congressman Gilchrest, for the benefit of those who don't 
know it, has made two visits to the island to see for himself 
what is there. His last was to assist us in our spring clean-up 
effort.
    Other educators have visited the island, including Dr, 
Wayne Bell, who is the Director of the Center for the 
Environment and Society at Washington College. Dr. Bell writes, 
``the potential for educational and public outreach programs 
dealing with the environment, archeology and cultural history 
is outstanding.''
    He continues in his letter, ``I am especially excited about 
program development for the region's kindergarten through 12 
schools.'' he says, ``Garrett Island will be a wonderful 
opportunity for undergraduates to pursue environmental 
education internships that would assist in the interpretation 
and presentation of information to teachers, young people and 
the general public. Such opportunities are far too rare on the 
Upper Eastern Shore.''
    In addition to Washington College, two other regional 
groups share an active interest in the permanent protection of 
Garrett Island. One is the Northern Chesapeake Chapter of the 
Archeological Society of Maryland. They state in a report, The 
Archeological Importance of Garrett Island, that, beyond the 
archeological records it contains, the island itself is an 
artifact, an integral part of the natural and cultural 
landscape, bearing both local through national level historical 
and cultural significance.
    The Society would like to develop a multi-year project on 
the island geared toward providing a management plan for 
guiding future research and preservation efforts.
    The newest interest group on the island is the Lower 
Susquehanna Heritage Greenway, one of Maryland's few certified 
greenways. The Cecil Land Trust has obtained a conditional 
grant of up to $300,000 in matching funds through the LSHG and 
the Maryland Heritage Area Authority's Target Investment Zone 
Program. The acquisition of Garrett Island for permanent 
protection in its natural state is an important part of LSHG's 
linkage concept, the preservation-conservation of heritage 
resources and natural features within the Susquehanna Valley.
    The calls for the island's permanent protection depends on 
the determination of its fair market value and accurate acreage 
account. There have been two appraisals in the past 3 years 
using development scenarios to determine the value. The value 
range is $3,000 to $3,400 per acre. The problem in using this 
type of valuation system is that there are no local 
comparables.
    Cecil Land Trust has obtained additional information to 
support the value of $3,400 an acre. We obtained a certificate 
of elevation to meet FEMA requirements, soils determination for 
health department requirements, and after searching through a 
dozen islands on the East Coast that were developed but only 
had water access, we found an island in the Susquehanna River 
in New York State that is entirely comparable to Garrett 
Island, including its history and its present use. It sold at 
public auction in 1988 for $3,447 an acre.
    The Cecil Land Trust has raised $150,000 to acquire partner 
shares of Garrett Island. It would take an additional $600,000 
to purchase the remaining interest of the Garrett Island 
Limited Liability Company. We have the commitment of $300,000 
from the Maryland Historical Area Authority, and if we can 
reach a mutual agreement on value and acreage--if we had an 
additional $300,000 in Federal matching funds, we would be able 
to--if they were available, Cecil Land Trust would encourage 
the Garret Island Limited Liability Company to accept a price 
of $600,000 in State and Federal funds in exchange for the 
title to Garrett Island.
    The Cecil Land Trust, the Northern Chesapeake Chapter of 
the Archeological Society of Maryland and the Lower Susquehanna 
Greenway would request input into the management plan for the 
island.
    The opportunity for the Federal recognition and funding 
through House bill 4807 will not only demonstrate the 
importance of permanent protection for Garrett Island, it will 
also show how local groups can partner with the government to 
protect a community legacy.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Kilby.
    [The prepared statement of Mr. Kilby follows:]

        Statement of William Kilby, President, Cecil Land Trust

    Cecil Land Trust is a four year old, all volunteer non-profit, with 
a mission to preserve farmland, woodland, natural habitats and historic 
rural communities and to provide assistance to those interested in land 
conservation.
    We have working agreements with the Maryland Environmental Trust 
and The Conservation Fund. We have five donated easements, a 16,000 
acre Rural Legacy Area, an outreach program that has produced three 
studies, including an Ag Land Preservation and Protection Task Force 
report and a Farm Link Program. Out interest in the permanent 
protection of Garrett Island comes from our role of providing 
assistance to those interested in land conservation.
    Over two years ago we were approached by two conservation minded 
individuals who were concerned about Garrett Island being sold for yet 
another development scheme. With each sale the price was increasing. 
They asked for our help. A business arrangement, the Garrett Island 
LLC, was formalized. It enables Cecil Land Trust to purchase the 
interest of other members as :funds are raised with the goals of 
permanent protection, public access, and a comprehensive educational 
program. House Bill 4807, to include Garrett Island in the Susquehanna 
National Wildlife Refuge, fits our vision for the Island's future.
    We applaud Congressman Gilchrest for bringing to the attention of 
Congress that Garrett Island is both, historically significant and 
ecologically unique. Its historical significance predates the 
establishment of the state of Maryland, as the Virginia Company's 
northernmost fir trading post in the Chesapeake Bay. Its history and 
prehistory represents every resource-based industry--agriculture, fur 
trading, fish packing, ice storage, logging and mining, It has 
witnessed the history of transportation from canoes to barges. Its land 
Mass supports both a road and a railroad. Its uniqueness as a rock 
island in the tidal waters of the Chesapeake Bay allows a walk of a 
half mile to tale you from a tidal marsh to the 114 foot summit of a 
volcanic core.
    Since the Susquehanna River from the Conowingo Dam. to Garrett 
Island, is open most of the winter, it serves as a haven for many kinds 
of birds. The Audubon Society's New Years Eve count has spotted 44 
species, including 14 kinds of ducks and a number of eagles. Spring and 
fall migration also includes Canadian Geese, common loons and tundra 
swans. A cove on the island's southwest corner, has an active heron 
roost. Havre de Grace High School students will be placing and 
monitoring wood duck boxes on the island for the many wood ducks that 
nest in the area.
    Both freshwater and anadromous fish are abundant around the island. 
Game fish. include striped bass, large mouth and small mouth bass, 
white and yellow perch, and catfish. The Bassing Bunch fishing club, a 
group that has adopted the island as one of. its projects, reports that 
the sand bar, at the island's south end, is an extremely important 
spawning ground for striped bass. The island also supports a year round 
herd of about 20 deer.
    Congressman Gilchrest has made two visits to the island. His last 
was to assist in our spring clean-up effort. Other educators have 
visited the island including Dr. Wayne Bell, director of the Center for 
the Environment and Society at Washington College. Dr. Bell writes, 
``the potential. for educational and public outreach programs dealing 
with the environment, archaeology and cultural history is 
outstanding,'' He continues in his letter, ``I am especially excited 
about program development for the region's K-12 schools. Garrett Island 
will be a wonderful opportunity for undergraduates to pursue 
environmental education internships that would assist in the 
interpretation and presentation of information to teachers, young 
people, and the general public. Such opportunities are far too rare on 
the Upper Eastern Shore.''
    In addition to Washington College, two other regional groups share 
an active interest in the permanent protection of Garrett Island. One 
is the Northern Chesapeake Chapter of the Archaeological Society of 
Maryland. They state in a report, The Archaeological Importance of 
Garrett Island, ``beyond the archaeological record it contains, the 
island is itself an artifact--an integral part of the natural and 
cultural landscape--beating local through national level historical and 
cultural significance.'' The Society would like to develop a multi-year 
project on the island geared toward providing a management plan for 
guiding future research and preservation efforts. The newest interest 
group is the Lower Susquehanna Heritage Greenway (LSHG), one of 
Maryland's few certified greenways. The Cecil Land Trust has obtained a 
conditional grant of up to $300,000 in matching funds through LSHG and 
the Maryland Heritage Area Authority's Target Investment Zone Program. 
The acquisition of Garrett Island, for its permanent protection in its 
natural state, is an important part of LSHG's linkage concept, the 
preservation-conservation of heritage resources and natural features 
within the Susquehanna Valley.
    The cost for the Island's permanent protection depends on the 
determination of its fair market value and accurate acreage count. 
There have been two appraisals in the past three years using 
development scenarios to determine value. The value range is $3,000 to 
$3,400 per acre. The problem in using this type of valuation system is 
that there are no local comparables. Cecil Land Trust has obtained 
additional information to support the value of $3,400. We obtained a 
certificate of elevation to meet FEMA's requirements, soils 
determination to health department requirements, and after searching 
through a dozen island on the East Coast that were developed, but had 
only water access, we found an island in the Susquehanna River in New 
York State that is entirely comparable to Garrett Island, including its 
history and its present use. It sold at public auction its 1988, for 
$3,447 per acre.
    The Cecil Land Trust has raised $150,000. It would take $600,000 to 
purchase the remaining interest in the Garrett Island LLC. We have a 
commitment of $300,000 from MHAA, if we can reach. a mutual agreement 
on value and acreage. If $300,000 in Federal matching funds were 
available, the Cecil Land Trust would encourage the Garrett Island LLC 
to accept a price of $600,000 in state and Federal funds in exchange 
for the title to Garrett Island. The Cecil Land Trust, The Northern 
Chesapeake Chapter of the Archaeological Society of Maryland and The 
Lower Susquehanna Heritage Greenway would request to have input into a 
management plan for the island.
    The opportunity for Federal recognition and funding through H.R. 
4807 will not only demonstrate the importance of permanent protection 
of Garrett Island, it will also show how local groups can partner with 
government to protect a community legacy.
                                 ______
                                 

    [The letter referred to by Mr. Kilby from Wayne H. Bell, 
Ph.D., Center Director, Washington College, Center for the 
Environment and Society. follows:]
                           WASHINGTON COLLEGE

                 Center for the Environment and Society

                         300 Washington Avenue

                    Chestertown, Maryland 21620-1197

                            25 January 2001

M. Jayne Wright, Esquire
Law Offices of M. Jayne Wright, LLC
201 St. John Street
P.O. Box 939
Havre de Grace, MD 21078

Dear Ms. Wright:

    I am writing on behalf of the new Center for the Environment and 
Society at Washington College in support of the initiatives underway 
for program development at Garrett Island.
    It was my pleasure to have a guided tour of the Island in July, 
2000. The potential for educational and public outreach programs 
dealing with the environment, archaeology, and cultural history is 
outstanding.
    Garrett Island is unique physically, historically, and 
environmentally. Its location at the mouth of the Susquehanna River 
places it at the threshold of the source of 60% of the freshwater flow 
and sediment load into Chesapeake Bay. It is also near the top of the 
Delmarva Peninsula at a point where migratory routes of land birds and 
waterfowl are compressed. The mature forests on much of the island 
reflect changing commercial and agricultural land use and constitute an 
unique ``natural'' laboratory for learning the ecology of both native 
and introduced plant species. Others more qualified than myself can 
speak to the archaeology of Garrett Island, but I found it to be a 
treasure trove of artifacts from Native American and Colonial days. Not 
only are these artifacts in desperate need of protection; they also are 
in desperate need of interpretation and appreciation.
    The Center for the Environment and Society is especially interested 
in the potential of Garrett Island as an multi-disciplinary educational 
resource. I see it as an opportunity for Washington College students to 
conduct field studies in the Island's unique ecology and history that 
would include both aquatic (water quality monitoring, fish and 
waterbird population dynamics) and terrestrial (land use patterns, 
breeding bird surveys, ecology of introduced species) projects.
    I am especially excited about program development for the region's 
K-12 schools. Garrett Island will be a wonderful opportunity for 
undergraduates to pursue environmental education internships that would 
assist in the interpretation and presentation of information to 
teachers, young people, and the general public. Such opportunities are 
far too rare on the Upper Eastern Shore.
    The professional expertise that the Garrett Island initiative has 
mustered to guide program development is impressive. I look forward to 
becoming part of that resource in the months and years ahead. Please do 
not hesitate to contact me if the Center for the Environment and 
Society can be of service,

Sincerely yours,

Wayne H. Bell, Ph.D.
Center Director
                                 ______
                                 
                                 ______
                                 
    Mr. Gilchrest. I think what we will do, we will begin the 
questioning of Ms. Gloman and Mr. Kilby; and after that we will 
move on to Mr. Rapp and Mr. Pittenger.
    Ms. Gloman, I understand the situation that Fish and 
Wildlife is backlogged in maintenance, limited budget. You have 
set priorities; and you are dealing with maintenance costs, 
backlog in maintenance costs, et cetera, plus a new policy in 
Fish and Wildlife to limit special, legislatively new refuges. 
I am not sure how you limit refuges from us, but we are going 
to try to work with you as a team on this.
    If we look at this from a priority perspective, it seems to 
me that what is going on in the Chesapeake Bay watershed in the 
States of Maryland and Virginia in particular and all the 
efforts to begin to create a situation where agriculture is 
profitable, communities are economically viable and there is 
habitat for wildlife, which is the chief reason for extinction 
today, loss of habitat, and with the efforts being pursued to 
create conservation corridors on the land, to create island 
corridors in a number of places, that Fish and Wildlife would 
look at this region from the Susquehanna River down to the 
Blackwater Refuge and beyond and see the broader, longer 
timeframe of an area that would require preserving this kind of 
habitat.
    Because we will continue to lose it. We might as well get 
it when we can before it is gone for a corridor for a number of 
species. So I would like to work with Fish and Wildlife to tell 
you that, yes, Garrett Island should be one of the priorities.
    I know available funding is always an issue, and it is an 
issue now I guess because of all of the backlog that Fish and 
Wildlife has and the kind of attention that receives and then 
the potential new costs for new acquisitions. But here is what 
I would say today, and I would just like your response.
    I think Garrett Island, from what you have seen, and no one 
really from Fish and Wildlife--and it is private property, and 
you haven't been on the island, but I think an invitation can 
be at hand from Mr. Kilby and myself to bring Fish and Wildlife 
on the island within a month, I would say, to take a look at 
what the resources are. Available funding for this I think is 
probably minimal, considering other acquisitions to actually 
acquire the island.
    I need to be educated on this third point. That is, I don't 
see any maintenance costs on Garrett Island. Garrett Island can 
be categorized as--I don't know--a designated wilderness area 
or an ecological study area or something like that. But I don't 
think we really need any structures on Garrett Island. Maybe 
Garrett Island can be connected to Blackwater Refuge; and 
people in Blackwater can monitor the ecological health of it, 
along with the support of the local community.
    The Federal funds for this match, what has already been 
done, I think it can be fairly minimal.
    Last point is there is a lot going on in this particular 
region. In the farm bill, there was in section G a Delmarva 
Conservation Corridor Pilot Project to not only enhance 
agriculture but to enhance and preserve wildlife habitat. So I 
think it can be a significant part of that.
    So we will continue to pursue this approach, and I would 
like to ask you if you would like to continue to work with us 
to see how we can continue to preserve the island and is there 
any interest from Fish and Wildlife to pursue a study in order 
to acquire the island as an initial step?
    Ms. Gloman. Well, I think we are really interested in and 
we think it is very important to assess what the Fish and 
Wildlife resources are on that island. However, the 
Administration didn't include that in their budget request, and 
it is also not included in our base budget at this time to 
complete the study.
    Mr. Gilchrest. We need to include that legislatively for a 
study. The Administration in their budget request doesn't have 
money for a study, so that is something we would need to take a 
look at.
    Ms. Gloman. That would be your decision, and if you did 
that we would certainly carry through with the study.
    Mr. Gilchrest. So you wouldn't object to a study.
    Ms. Gloman. If you decided to put that in our budget, we 
would--
    Mr. Gilchrest. If we provided the resources for a study, 
Fish and Wildlife wouldn't object to the study.
    Ms. Gloman. We would follow through and do it, yes.
    Mr. Gilchrest. Mr. Kilby, can you give us at this point 
some dollar figure that would be required for Fish and 
Wildlife? I know there has been a lot of--in your testimony you 
talked about a range of possibilities for the assessment. Can 
you give us any round figure indication as to the amount that 
should be authorized for purchase of Garrett Island by Fish and 
Wildlife and would you object to Fish and Wildlife pursuing a 
study to determine whether or not it would be a priority?
    Mr. Kilby. I would certainly welcome a study. I know that 
there is an endangered turtle in the area that shows up on the 
map, not exactly on the island itself but on the adjoining 
shore. But I do know there is an endangered species. I am not 
sure what the turtle's name is. But I would welcome a study. It 
would be helpful to know.
    I know that no study has been particularly done. I know 
when Dr. Bell was out there he brought an associate with him 
who was interested in the type of--I think the variety of 
species of trees and plants that were both native and 
introduced. So there is a possibility that there are some 
plant--some kind of plants that are not native to the area that 
might be of interest. So I think a general study would be 
important.
    As far as a figure is concerned, I mentioned $300,000 of 
Federal matching funds. I think that is a figure that will work 
as long as we can agree upon an appraisal.
    As I say, we have had some problems with the appraisals 
because they are not comparables. We looked for comparables, 
and we found several. I think in the additional information 
that I have with my testimony, I brought in one--actually, from 
Fish and Wildlife's magazine called Bird Scapes. They have an 
article in there from a land trust that mentions an island 
called Walden Island in Puget Sound that Fish and Wildlife 
didn't pay for it, but the land trust in the area had to pay 
$5,400 an acre for it.
    So there is definitely--there are some comparables out 
there, and that is basically what we are looking for, a figure 
that everybody can feel comfortable with. Because one of the 
concerns for the island is that it is only water accessible, 
which we consider that to be a good thing. But when an 
appraiser looks at it, he considers that to be a bad thing. So 
we have to come to some terms on whether it is a good thing or 
bad thing.
    Mr. Gilchrest. Let us hope it works to your favor.
    I yield down to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman; and thank you for 
your testimony.
    Mr. Kilby, I assume that you are very familiar with the 
island that we are talking about and all the possible 
developments and ideas that might be circulating in the area. 
Is there any anticipated use of the island by the owners that 
we should be mindful of or we should be aware of in terms of 
consideration in considering this legislation?
    Mr. Kilby. Yes. What has happened is two other people who 
put up the money--the two conservation-minded people cannot 
possibly keep their money in it forever.
    It is kind of a standard practice with land trusts to go 
looking for people who are willing to invest in short term in 
pieces of property and then trying to buy it from them as soon 
as possible. It is a way that we get money because banks won't 
normally lend you money on these kinds of speculative things. 
So those two people are becoming a bit anxious in trying to get 
their money back, and they have to consider some kind of 
limited development scenarios. In other words, it is within 
critical areas, which limits the amount of development that can 
be done on it, but, given the acreage, they could build four 
homes on it. We don't want this to happen, but it is something 
that the land trust as a minority owner cannot stop.
    The majority owners, if we are not able to come up with the 
money within a period of time, that they will have to do 
something with it, yes.
    Mr. Underwood. So other than the development--other than 
building a few homes, is there any other anticipated 
development or are the local and State kind of procedures 
keeping that from happening?
    Mr. Kilby. Yes, to a degree. It is zoned open space. There 
has been some talk about annexing it into the local city, which 
is Havre de Grace, which would enable them to change the 
zoning. I mean, in other words, I know what they have 
considered doing, and they have been willing to work with us so 
far to this point, but they are becoming a little bit anxious 
about the money.
    Mr. Underwood. Thank you, Mr. Kilby.
    Ms. Gloman, in your statement of nonsupport for this 
legislation, you know that the Service has an extensive list of 
potential acquisitions in the Northeast and you also know that 
there has been some refuges that have been established recently 
through legislation passed by Congress. Is it the 
Administration's intent to oppose all refuges that are being 
proposed by Congress or is this on a case-by-case basis? And 
what criteria will be used in those assessments?
    Ms. Gloman. No, it is not the Administration's position to 
oppose all new refuges. The position is that our first priority 
should be taking care of what we have in light of our 
significant maintenance and operations backlog, while 
strategically growing the National Wildlife Refuge System--the 
operative term there being strategic. There is no moratorium. 
We still believe we need to grow the National Wildlife Refuge 
system. It is very important for us to accomplish our mission, 
but we want to be more strategic and want to set priorities, 
and we want to keep in mind how much it costs to operate those 
refuges.
    Some of the things that we think about when we are deciding 
which refuges to pursue--which I mentioned in my written 
testimony, are: how important is that habitat to trust 
resources? Is it in a recovery plan? Is it in a joint venture? 
We look at how it is connected to other lands. We look at other 
refuges in the area. What is the size? How much it will cost? 
So there are a lot of criteria.
    In fact, we are in the process right now of clearly 
articulating those criteria and developing some interim 
guidance; and I am sure that we would be pleased to comment 
more fully as we get them developed and talk to you a little 
bit more about what we are doing to decide how to strategically 
grow the National Wildlife Refuge System. But we are definitely 
not saying we are not going to do any more.
    Mr. Underwood. I appreciate the fact that you have outlined 
some of the criteria in your response, and you referred to 
strategically growing the refuges. Is there an emerging 
statement, you know? I mean, we are all on the same side. I 
mean, is there an emerging statement on this strategy?
    Ms. Gloman. We are working on an emerging statement. In 
fact, I was participating in a meeting last night. So, yes, we 
are working on trying to put that all down on paper and get 
that out with everyone.
    Mr. Underwood. Now as I understand it--and you referenced 
the $1.7 billion backlog, which is significant. Then as part of 
the creation of the National Wildlife Refuge Centennial 
Commission Act of 2000, Congress included a requirement for the 
Commission to develop and submit to the Congress a unified 
long-term plan to address priority operation and maintenance 
and construction needs of the refuge system. As I understand 
it, the Commission has apparently no intent to comply with this 
provision to report on that or to work on that provision. To 
your knowledge, is that correct or am I misinformed or under 
what authority would the Commission not engage in that?
    Ms. Gloman. I really don't have any knowledge of the 
Commission's intentions about the plan. We have prepared a 
draft plan, but I don't know--
    Mr. Underwood. Is there a way you could provide the 
Subcommittee information on that?
    Ms. Gloman. We can certainly check the status on that and 
get back to you.
    Mr. Underwood. Thank you.
    I would propose a swap between the Guam Fish and Wildlife 
Refuge for Garrett. If you are willing to engage in that, Mr. 
Chairman, I would be prepared to do it.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Underwood lives on an island in the South Pacific a 
little bit--not a whole lot larger than Garrett Island.
    Just a couple closing questions. It is my understanding, 
Ms. Gloman, that Fish and Wildlife at this point does not have 
a specific, cohesive policy for refuge expansion--
    Ms. Gloman. That is correct.
    Mr. Gilchrest. --and the Administration is now working to 
look at what is out there and what its policy should be?
    Ms. Gloman. Correct.
    Mr. Gilchrest. So about how long will that take?
    Ms. Gloman. I think we are looking toward having interim 
guidance sometime this fall, but there is still kind of the 
long-term issue. Part of what we are doing is looking at 
habitat goals and objectives, looking at what is needed, what 
is already protected, what needs to be protected and what our 
role is in that protection; and that is going to take perhaps 
several years to really get those habitat goals down.
    Mr. Gilchrest. So you wouldn't expand the refuge until all 
that is complete?
    Ms. Gloman. Not necessarily. We would go by this interim 
guidance that would be done in the fall; and then we would have 
a better, stronger idea in another couple of years. But, to my 
knowledge, there is no intention to wait until we--2 years down 
the line until we get this big strategic plan done to move on 
any of these. We are going to use the interim guidance.
    Mr. Gilchrest. Will the interim guidance be published in 
the Federal Register?
    Ms. Gloman. Yes.
    Mr. Gilchrest. I can appreciate the idea that Fish and 
Wildlife should have a strategic plan. There should be 
priorities. You can't have everybody for legitimate reasons or 
maybe less legitimate coming up with legislation to pop up 
refuges all over the country. But I would like to specifically 
invite you and certainly Glen Carlin from Blackwater to visit 
and maybe even Jim Rapp right here to visit Garrett Island and 
see how it is another piece in this corridor of protected areas 
for the flora and fauna of our region, and we would like to do 
all we can to protect this land.
    We are likely to continue to pursue this legislation--in 
fact, we are going to continue to pursue this legislation, but 
what we would like to do is work with your office, provide the 
resources for a study, take you out in person to the island, 
show the broader plan for the region. I think that, as you 
develop your interim strategy, you will see that it is 
strategic. It is not only our priority, but I think it would be 
your priority as well. It will be minimal, if any, maintenance 
costs to this. I think we could turn it over to Mother Nature. 
But I really appreciate your testimony and your frankness with 
us today.
    Ms. Gloman or Mr. Kilby, any last comment?
    Mr. Kilby. No. Just thank you for the opportunity to be 
here.
    Mr. Gilchrest. Thank you, Mr. Kilby; and thank you, Ms. 
Gloman.
    Ms. Gloman. Thank you, and I look forward to that visit to 
Garrett Island.
    Mr. Gilchrest. Yes, ma'am. We will put it up.
    Mr. Kilby and Ms. Gloman, you may both leave if you want 
to. You are certainly welcome to stay.
    Bill, if you want to head up to my office, we won't be too 
long here. We can chat a little bit further if you have the 
time. Thank you very much.
    Mr. Gilchrest. Mr. James Rapp, Director of the Salisbury 
Zoo in Salisbury, Maryland--thanks again for your visit, Jim. 
We appreciate it--and Mr. David Pittenger, Executive Director, 
National Aquarium in Baltimore. I am sort of excited about the 
potential for both of you to sort of select certain ecological 
study areas in the region of the Chesapeake Bay where you could 
pursue some field trips and field studies.
    Mr. Gilchrest. Jim, thanks for coming; and you may begin.

STATEMENT OF JAMES L. RAPP, DIRECTOR, SALISBURY ZOOLOGICAL PARK

    Mr. Rapp. Look forward to that trip to Garrett Island.
    Thank you, Mr. Chairman, for the opportunity to testify 
today on House Concurrent Resolution 408 which recognizes the 
American Zoo and Aquarium Association and its members' 
contributions to animal care, conservation education and 
research. AZA greatly appreciates your tremendous support for 
fish and wildlife conservation and for accredited zoos and 
aquariums.
    My name is Jim Rapp, and I am Director of the Salisbury Zoo 
in Salisbury, Maryland. I have worked at the zoo for 11 years. 
The zoo is a 12-acre facility that displays 100 different 
wildlife species from the new world, and we host an annual 
attendance of about 200,000 visitors, which includes 15,000 
schoolchildren.
    The zoo has been an accredited member of the AZA since 
1972. I currently serve on the AZA's Government Affairs 
Committee.
    Before I briefly discuss some specifics about AZA and its 
members, I would like to commend the members of this 
Subcommittee for their far-sighted vision in passing the Great 
Ape Conservation Act during the last Congress and reauthorizing 
the Asian elephant, African elephant, and Rhino/Tiger 
Conservation Acts in this Congress.
    I am here on behalf of the 205 accredited institutions of 
AZA which draw over 135 million visitors annually. 
Collectively, our institutions teach more than 12 million 
people each year through education programs that focus on, 
among other things, the devastating effects of habitat loss and 
illegal trade in endangered species parts and products. AZA 
members invest an estimated $50 million annually in research 
and support over 1,300 field conservation projects in 80 
countries.
    There is one important distinction between AZA member 
institutions and the over 2,500 animal exhibitors currently 
licensed by the Department of Agriculture--accreditation. AZA 
is the leader in establishing and maintaining high standards 
for zoos and aquariums through its accreditation process. Only 
205 zoos and aquariums have met AZA's strict standards to 
become members of the association and are, therefore, the 
premier zoological parks and aquariums in North America. 
Accreditation involves a peer review and inspection process by 
which zoos and aquariums are evaluated in order to become AZA 
members. Accreditation examines animal collection, veterinary 
care, safety and security, finance, staff and education 
programs, conservation and research, among other things. It is 
a rigorous and difficult process to attain AZA accredited 
status but one that affords tremendous professional 
credibility.
    Mr. Rapp. There are many priorities for AZA-accredited 
institutions, but the most important are constantly improving 
the level of care for our animals, conserving animals in the 
wild, and educating the public about the urgent need for 
species conservation.
    Along these lines, AZA institutions have established the 
Species Survival Plan, or S S P, a long-term plan involving 
genetically diverse breeding, habitat preservation, public 
education, field conservation, and supportive research to 
ensure survival for many endangered species. Currently AZA 
members are involved in 97 S S P programs, featuring 140 
species throughout the world. A majority of those S S Ps cover 
species which are listed under the Endangered Species Act and 
CITES, including great apes, elephants, rhinos, and I believe 
Guam rails.
    In addition, AZA administers the Conservation Endowment 
Fund, a competitive funding mechanism which supports 
conservation initiatives. In the past 10 years, the C E F has 
awarded over $2 million in grants to preserve species and their 
habitats, educate the public, and stimulate conservation action 
locally and in the home ranges of the species concerned.
    And while AZA zoos and aquariums have become the last 
stronghold for some species, we fully realize that we cannot 
save them by zoo propagation alone. AZA members continue to 
work with Congress, Federal and State agencies and others to 
conserve our fish and wildlife heritage.
    Mr. Chairman, a quarter of the world's mammal species could 
face extinction within 30 years, according to a recent U.N. 
Report. It is therefore vital that more people become involved 
in efforts to conserve our imperiled environment. I would like 
to briefly focus on a few initiatives which AZA has been 
involved with to help address some of these issues.
    The Bushmeat Crisis Task Force was established in 1999, and 
has accomplished much in a very short period of time. The 
offices of the Task Force are based at AZA. The Task Force 
consists of 34 supporting members dedicated to the conservation 
of wildlife populations threatened by the commercial hunting of 
wildlife, including elephant, chimpanzee, and bush pig for sale 
as meat. This is an unprecedented collaboration among different 
conservation organizations to try to get a handle on this 
incredibly complex issue. The mission of the Task Force is to 
facilitate the work of members and their partners in 
identifying and implementing effective solutions to the 
commercial exploitation of endangered species through the 
bushmeat trade primarily in Africa.
    Last week AZA announced the formation of the Butterfly 
Conservation Initiative, a program designed to bring together 
organizations and government agencies to aid the recovery of 
imperiled butterflies in North America. AZA, in cooperation 
with the U.S. Fish and Wildlife Service and the National 
Wildlife Federation, founded this initiative in response to the 
alarming recent decline in butterfly populations.
    Butterflies and other insects are excellent indicators of 
the overall health of an ecosystem. What the general public 
might not realize is that insects pollinate the vast majority 
of all food plants on Earth. The loss of butterflies would be 
an aesthetic and biological disaster. Butterflies are 
threatened by habitat loss due to urbanization, the widespread 
use of pesticides, and the introduction of invasive species. 
The Butterfly Initiative will aim to recover imperiled 
butterfly populations by raising public awareness about habitat 
protection and by undertaking restoration efforts where 
appropriate.
    I would also mention briefly our relationship with the 
National Wildlife Refuge System, which was discussed here 
today. Over the years, AZA and the U.S. Fish and Wildlife 
Service have made great strides for wildlife conservation 
together, especially through endangered species education, 
recovery, and reintroduction. We also have a number of strong 
partnerships that have developed among the Service's national 
wildlife refuges and AZA zoos and aquariums. For example, the 
Salisbury Zoo works with Blackwater National Wildlife Refuge to 
promote birdwatching on the Delmarva Peninsula. This not only 
promotes the use of our local refuge system, but brings tourism 
dollars to our local economy.
    As mentioned, the U.S. Fish and Wildlife Service is rapidly 
approaching its 100th year anniversary. This is America's only 
network of Federal lands dedicated to wildlife conservation. 
Established in 1903 by President Theodore Roosevelt, the system 
includes more than 535 refuges, encompassing 93 million acres 
of prime wildlife habitat. Despite their importance to animals, 
a small percentage of Americans know about these national 
treasures.
    One of the areas that AZA is pursuing with the Service is 
to educate the 135 million visitors to our facilities about the 
beauty and diversity of the wildlife refuge systems in this 
country and their valuable role in wildlife conservation. We 
hope that a broader partnership among AZA member institutions 
and refuges will open up a whole new spectrum of cooperative 
efforts to share audiences, expertise, resources, and 
technology.
    Mr. Chairman, AZA member institutions are involved in a 
number of important issues, continually striving to improve the 
welfare of the animals in our care, serving on the interface 
between the general public and conservation messages, and 
working in the field and within our own institutions to protect 
and conserve our valued fish and wildlife species. AZA member 
institutions will continue to work on those endeavors in order 
to bring focus to the myriad threats that face wild animals 
worldwide and to search for reasoned and workable solutions.
    Thank you again for this opportunity to appear before the 
Subcommittee, and thank you, Mr. Chairman, for your continued 
support of AZA and its members, and I would be happy to answer 
any questions you may have.
    Mr. Gilchrest. Thank you, Mr. Rapp.
    Mr. Rapp. Thank you.
    [The prepared statement of Mr. Rapp follows:]

    Statement of James L. Rapp, Director, Salisbury Zoological Park

    Thank you Mr. Chairman, for the opportunity to testify today on 
House Concurrent Resolution 408 which recognizes the American Zoo and 
Aquarium Association and its members' contributions to animal care, 
conservation education and conservation research. AZA greatly 
appreciates your tremendous support for fish and wildlife conservation 
and for accredited zoos and aquariums.
    My name is Jim Rapp and I am the Director of the Salisbury 
Zoological Park in Salisbury, Maryland. I have worked for the Zoo for 
eleven years serving in a number of capacities. The Salisbury Zoo is a 
twelve-acre facility that displays nearly 100 different wildlife 
species over 350 specimens. We host an annual attendance of 200,000 
visitors, including 15,000 local school children.
    The Zoological Park has been an accredited member of the American 
Zoo and Aquarium Association (AZA) since 1972. I currently serve on the 
AZA Government Affairs Committee.
    Before I briefly discuss some specifics about AZA and its members, 
I would first like to commend the members of this Subcommittee for 
their far-sighted vision in passing the Great Ape Conservation Act 
during the last Congress and reauthorizing the Asian Elephant, African 
Elephant, and Rhino/Tiger Conservation Acts in this Congress. These are 
all critical components of the Multinational Species Conservation Fund 
program and international wildlife conservation programs in general. 
AZA has worked together with other non-governmental organizations to 
secure passage of these important conservation measures and to push for 
increased appropriation for the funds.
    I am here on behalf of the 205 professionally managed and 
accredited institutions of AZA which draw over 135 million visitors 
annually and have more than 5 million zoo and aquarium members. 
Collectively, our institutions teach more than 12 million people each 
year in living classrooms and dedicate an estimated $50 million 
annually to conservation education programs that focus on, among other 
things, the devastating effects of the loss of vital species habitat 
and the illegal trade in endangered species parts and products. AZA 
members invest an estimated $50 million annually in scientific research 
and support over 1300 field conservation and research projects in 80 
countries.
    There is one important distinction between AZA member institutions 
and the over 2500 animal exhibitors currently licensed by the U.S. 
Department of Agriculture accreditation. AZA is the leader in 
establishing and maintaining high standards for zoos and aquariums 
through its accreditation process. Only 205 zoos and aquariums have met 
AZA's strict accreditation standards to become members of the 
Association, and are therefore the premier zoological parks and 
aquariums in North America. Accreditation involves a thorough peer 
review and inspection process by which zoos and aquariums are evaluated 
in order to become AZA members. Accreditation examines all aspects of 
an institution's operation, including the animal collection (including 
animal acquisition and disposition), veterinary care, physical 
facilities, safety, security, finance, staff, governing authority, 
support organization, education programs, conservation and research. It 
is a rigorous and difficult process to attain and retain AZA accredited 
status but one that affords tremendous professional credibility from 
peer review.
    There are many functions and priorities for AZA accredited 
institutions but the most important are: constantly improving the level 
of care and husbandry for the animals in our care; conserving animals 
in the wild; and educating the public about the urgent need for species 
conservation.
    Along these lines, AZA institutions have established the Species 
Survival Plan (SSP) program a long-term plan involving genetically 
diverse breeding, habitat preservation, public education, field 
conservation and supportive research to ensure survival for many 
threatened and endangered species. Currently, AZA members are involved 
in 97 SSP programs featuring 140 species throughout the world. A large 
majority of those SSPs cover species which are listed under the 
Endangered Species Act or CITES, including all the great apes--
chimpanzees, gorillas, orangutans and bonobos, African and Asian 
elephants, Siberian and Sumatran tigers and black, white, Sumatran and 
greater one-horned rhinos.
    In addition, AZA administers the Conservation Endowment Fund (CEF) 
a competitive funding mechanism which supports conservation, scientific 
and educational initiatives of AZA member institutions and their 
partners. In the past 10 years, the CEF has awarded over $2 million in 
grants to 138 projects in 27 countries to preserve species and their 
habitats, educate the public, stimulate conservation action and support 
breeding and reintroduction of threatened and endangered species.
    And while AZA zoos and aquariums have become the last stronghold 
for some species, we fully realize that we cannot save them by zoo 
propagation alone. AZA members continue to work with Congress, the 
Federal/state agencies, conservation organizations, the private sector 
and the countries of origin to conserve our fish and wildlife heritage.
    Mr. Chairman, a quarter of the world's mammal species could face 
extinction within 30 years according to a recent UN report. According 
to other estimates, as much as 20 percent or more of the world's 
biodiversity could disappear in the next two decades, primarily due to 
habitat fragmentation and alteration and the over-exploitation of 
threatened and endangered species. It is therefore vital that more 
people, governments, institutions and organizations become involved in 
efforts to conserve our imperiled environment. I would like to briefly 
focus on a few initiatives which AZA has been involved with to help 
address some of these conservation issues.
Bushmeat Crisis Task Force
    The Bushmeat Crisis Task Force was established in 1999, and has 
accomplished much in a very short period of time. The offices of the 
Task Force are based at AZA. The Task Force consists of 34 supporting 
members primarily North American conservation and animal protection 
organizations, natural history museums, zoological parks and scientific 
societies dedicated to the conservation of wildlife populations 
threatened by the commercial hunting of wildlife--including elephant, 
gorilla, chimpanzee, forest antelope and bush pig--for sale as meat. 
This is an unprecedented collaboration among different conservation 
organizations to try to get a handle on this incredibly complex issue. 
The mission of the Task Force is to facilitate the work of members and 
their partners in identifying and implementing effective and 
appropriate solutions to the commercial exploitation of endangered and 
threatened species through the bushmeat trade in Africa.
    The primary activities of Task Force in the past year have been to 
increase awareness among key decision makers and the general public 
here in the United States; information sharing and analysis; 
facilitating collaboration among stakeholders including government, 
NGOs, universities, zoological parks and museums, and a variety of 
other organizations; identification of priority solutions; and support 
for member organizations and partners in planning, developing and 
implementing on the ground solutions to the bushmeat crisis.
Butterfly Conservation Initiative
    Last week, AZA announced the formation of the Butterfly 
Conservation Initiative (BFCI), a program designed to bring together 
non-governmental organizations and government agencies to aid the 
recovery of imperiled butterflies in North America. AZA, in cooperation 
with the U.S. Fish and Wildlife Service (USFWS), the National Wildlife 
Federation, the Xerces Society and 35 AZA-accredited zoos and aquariums 
founded the Initiative in response to the alarming recent decline in 
butterfly populations.
    Butterflies and other insects are excellent indicators of the 
overall health of an ecosystem. What the general public might not 
realize is that insects pollinate the vast majority of all food plants 
on Earth. The loss of butterflies and other pollinators would be an 
aesthetic and biological disaster. Butterflies, like many 
invertebrates, are threatened by habitat loss due to urbanization, the 
widespread use of pesticides and the introduction of invasive species 
that out-compete obligate host plants.
    Currently, there are 22 Federally-protected butterfly species that 
are listed as threatened or endangered, but that number is likely to 
grow without significant efforts to halt the decline. The Butterfly 
Initiative will aim to recover imperiled butterfly populations by 
raising public awareness about habitat protection and by undertaking 
restoration efforts where appropriate. The participating organizations 
will work together to involve the public in outreach, education and 
community conservation activities. The Initiative will focus initially 
on the Karner blue butterfly, an ideal start because the founding 
partners, including the Toledo Zoo, have already accomplished so much 
to aid in its recovery. AZA will work with its members and partners to 
develop a ``matrix of needs'' for all 22 imperiled species so that the 
Initiative targets its efforts and maximizes the impact of its 
butterfly recovery work.
National Wildlife Refuges
    Over the years, AZA and the U.S. Fish and Wildlife Service have 
made great strides for wildlife conservation together, especially 
through endangered species education, recovery and re-introduction. We 
also have a number of strong partnerships that have developed among the 
Service's national wildlife refuges and AZA zoos and aquariums. For 
example, the Salisbury Zoo has been working with Blackwater National 
Wildlife Refuge and others to promote birdwatching on the Delmarva 
Peninsula. Through this partnership, we have produced a birdwatcher's 
guide to the region, and host an annual birding weekend. This not only 
promotes the use of our local National Wildlife Refuges, but brings 
tourism dollars to the local economy.
    The U.S. Fish and Wildlife Service is rapidly approaching the 100th 
anniversary of the National Wildlife Refuge System, America's only 
network of Federal lands dedicated to wildlife conservation. 
Established in 1903 by President Theodore Roosevelt, the refuge system 
includes more than 535 national wildlife refuges across the country, 
encompassing 93 million acres of prime wildlife habitat. National 
wildlife refuges are best known as sanctuaries for endangered species 
of fish and wildlife or stepping stones for millions of migrating 
birds. They also provide great scenic getaways for the general public 
to enjoy the wonders of the outdoors. However only a small percentage 
of Americans know about these national treasures.
    One of the areas that AZA is pursuing with the Service is to 
educate the 135 million annual visitors to AZA zoos and aquariums about 
the beauty and diversity of the over 535 wildlife refuges in this 
country, their valuable role in conservation and how AZA zoos and 
aquariums can make a significant contribution to the continued success 
of the refuge system. AZA hopes that a broader partnership among AZA 
member institutions and refuges will open up a whole new spectrum of 
cooperative efforts to share audiences, expertise, resources and 
technology, and create opportunities to work together on community 
outreach and volunteer recruitment activities.
    Mr. Chairman, AZA member institutions are involved in a number of 
important issues continually striving to improve the welfare of the 
animals in our care; serving on the interface between the general 
public and conservation messages; and working in the field and within 
our own institutions to protect and conserve our valued fish and 
wildlife species. AZA member institutions will continue to work on 
these endeavors in order to bring focus to the myriad threats that face 
fish and wildlife species worldwide and to search for reasoned and 
workable solutions.
    Thank you again for this opportunity to appear before the 
Subcommittee and thank you Mr. Chairman for your continued support of 
AZA and its members.
    I would be happy to answer any questions that you may have.
                                 ______
                                 
    Mr. Gilchrest. Mr. Pittenger.

  STATEMENT OF DAVID PITTENGER, EXECUTIVE DIRECTOR, NATIONAL 
                      AQUARIUM, BALTIMORE

    Mr. Pittenger. Thank you, Mr. Chairman. I would ask that my 
written statements, if they could be, be included in the 
record.
    Mr. Gilchrest. Without objection.
    Mr. Pittenger. Again, I am Dave Pittenger. I am the 
director of the National Aquarium in Baltimore, and I again 
thank you for the opportunity to speak on behalf of House 
Resolution 408, recognizing the contributions of all the 
accredited AZA members. We haven't been around quite as long as 
the Salisbury Zoo. We opened in 1981, and were accredited in 
1984, and have maintained that accreditation and have been able 
to open the world of water really to 30 million people in the 
time that we have been open since 1981. And, as Jim mentioned, 
I would like to just emphasize the fact that 136 million 
Americans visit zoos and aquariums every year, and 5 million 
families are members of those zoos and aquariums. So, there is 
a great opportunity to open the world of water, the world of 
zoos and aquariums to the American public. And we really do 
focus on the effects of loss of vital species, loss of habitat, 
and also illegal trade in endangered species products.
    One of the many conservation research programs that various 
zoos and aquariums undertake is the Marine Mammal Stranding 
Network. Again, I would like to thank the Members for 
authorizing in the last Congress some support for the Marine 
Mammal Stranding Network. The National Aquarium in Baltimore is 
responsible for any stranded mammals, turtles, or other 
creatures that come ashore in Maryland, Delaware, and Virginia, 
and it is a great opportunity to learn a lot about these really 
Ambassadors from the ocean. In some ways they are the canary in 
the mineshaft that tells us not always the best story for what 
is happening out there in the ocean. So we maintain a Marine 
Animal Rescue Program. And, again, thank you for your support 
there.
    One of the other very important goals of AZA is a focus on 
conservation, education, and research. Our members are 
authorities on welfare, husbandry, and the behavior of the 
animals in their care. We have many broad-based education and 
research projects that we unfold to the public. Our primary 
goal would be to tap the expertise of AZA members on very 
important conservation issues, and I know the government and 
others do that.
    We are very proud of the high-quality exhibits that we 
provide to the millions of people that visit us each year, and 
we feel that we can be a real showcase, bringing the work of 
other nongovernmental organizations and the governmental 
organizations to the public. We have a mission of educational 
exhibits and programming at all the AZA members, and it is an 
important part of our work in accreditation.
    The National Aquarium of Baltimore has focused in on a 
number of initiatives, and, like the Salisbury Zoo, the 
Chesapeake Bay, which we are happy to be right on the Inner 
Harbor, the branch of the Chesapeake Bay, is an important 
initiative for us. And then we are working at Fort McHenry, at 
Barren Island, at Eastern Neck National Wildlife Refuge, and I 
think the opportunity to preserve these lands is an important 
one that we need to take, because people, when they go out to 
these areas, can become interested, can be mobilized, and 
really they really are unaware of what is out there, and I 
think it is an important role that we can play in providing 
that interface so people will learn more about these areas.
    Research is in a very important--fundamental and applied 
research is very fundamental to all the AZA members and that we 
collaborate very broadly with colleges, universities, 
government agencies in advancing knowledge about wildlife both 
at our institutions and in the field. Many AZA-accredited 
institutions--in fact, recently it is now a requirement that 
conservation work be part of what you do; working with sea 
turtles, Project Seahorse, where we are trying to reestablish 
stocks in the wild, many threatened fishery and marine mammals 
species, coral reef monitoring, protection in the Pacific Rim 
and the Caribbean of these vital resources, which is just like 
the land we are losing every day. AZA members were 
instrumental, for instance, in rescuing and rehabbing thousands 
of endangered sea turtles that were confiscated from a 
Malaysian ship headed for China. We are proud to be part of 
that with the research we do in the various areas, including 
everything from sharks and coral reefs to salt marsh 
restoration, and even breeding these beautiful frogs from South 
America.
    So, I am very proud that over the past decade AZA zoos and 
aquariums have come a very long way not only in our 
responsibility to teach the public, but to be active out in the 
field in conservation.
    So, again, I want to thank you, Mr. Chairman, for 
introducing this resolution and for your support for all that 
we are doing. Thank you.
    Mr. Gilchrest. Thank you, Mr. Pittenger.
    [The prepared statement of Mr. Pittenger follows:]

Statement of David M. Pittenger, Executive Director, National Aquarium 
                              in Baltimore

    Thank you for the opportunity to testify on House Concurrent 
Resolution 408 that recognizes the American Zoo and Aquarium 
Association and its members' contributions to animal care, conservation 
education and research and wildlife conservation we truly appreciate 
your efforts on behalf of fish and wildlife conservation and your 
support of accredited zoos and aquariums.
    My name is Dave Pittenger and I am the Executive Director of the 
National Aquarium in Baltimore, Maryland. The National Aquarium in 
Baltimore is a global living classroom connecting thousands of visitors 
to the importance of preserving the world's most precious life-giving 
resource water. Since opening in 1981, we have welcomed over 30 million 
visitors from around the world and continue to host over 1.6 million 
visitors annually, including 85,000 Maryland school children that 
utilize our education program at no cost. We offer a variety of 
education opportunities, conservation and animal research as well as 
conservation field programs that are on the forefront of the future 
research and technology for the health and vitality of the world's 
water resources.
    For twenty-one years, the Aquarium has encouraged research that 
advances its mission in education, exhibitry, and animal welfare. 
Animal studies, conducted by Biological Programs Department staff, are 
often outgrowths of daily husbandry routines, medical cases, or 
laboratory analyses and reflect the staff's dedication to providing 
quality care to all animals, large or small. Other projects demonstrate 
the Aquarium's commitment to protecting endangered species and their 
habitats. The National Aquarium in Baltimore has been an accredited 
member of the American Zoo and Aquarium Association (AZA) since 1984.
    AZA represents 205 professionally managed and accredited 
institutions which draw over 136 million visitors annually and have 
more than 5 million zoo and aquarium members. Collectively, our 
institutions teach more than 12 million people each year in living 
classrooms and dedicate over $50 million annually to conservation 
education programs that focus on, among other things, the devastating 
effects of the loss of vital species habitat and the illegal trade in 
endangered species parts and products. AZA members invest over $50 
million annually in scientific research and support over 1300 field 
conservation and research projects in 80 countries.
Marine Mammal Strandings
    First, I would like to strongly commend the members of this 
Subcommittee for their far-sighted vision in passing the John H. 
Prescott Marine Mammal Rescue Assistance Act during the last Congress. 
This Act has provided critically needed funds to those members of the 
Marine Mammal Stranding Network like the National Aquarium and many 
other AZA members--which devote large amounts of their own time and 
resources to marine mammal rescue and rehabilitation efforts. These 
funds help to offset the enormous costs associated with these 
conservation activities. I am particularly pleased because this Act 
honors John Prescott, the former Executive Director and Director 
Emeritus of the New England Aquarium, a prestigious member of the AZA.
    For years, scientists and experts have been frustrated in their 
attempts to restore to health the thousands of stranded marine mammals 
found sick and dying on beaches throughout the world. Today, members of 
AZA have the expertise and ability to offer much needed, practical 
assistance to these animals. The accumulated knowledge, collective 
experience, and resources of these facilities are the primary factors 
in these successful rehabilitation efforts. Indeed, AZA members provide 
millions of dollars in direct expenditures and in-kind contributions 
annually to support stranding programs.
    The National Aquarium in Baltimore's Marine Animal Rescue Program 
(MARP) is responsible for the rescue and care of marine mammals and sea 
turtles in the coastal areas of Virginia, Maryland, and Delaware. MARP 
volunteers respond to calls 24 hours a day to care for sick and injured 
stranded animals. Assisting the professional Aquarium medical staff are 
specially trained paid and volunteer members of the Aquarium who 
collect of valuable data. The National Aquarium in Baltimore has 
responded to calls from the public, the Maryland and Delaware 
Departments of Natural Resources, the Virginia Marine Science Museum, 
and the United States Coast Guard. To date, the National Aquarium in 
Baltimore has rescued and rehabilitated approximately 150 animals.
Conservation Education and Research
    AZA aquarium members represent the foremost authorities on the 
welfare, husbandry, and behavior of the animals in their care. AZA 
member institutions also play a critical role in the conservation of 
these animals in their natural habitats through the broad-based 
education and research activities briefly outlined below. We believe 
that our primary goal should be to tap into the experience and 
expertise of AZA member institutions on important conservation issues 
by directing, to the best of our abilities, the highest quality 
educational exhibits and fact-based conservation messages to the 
general public.
    The effective conservation of wild species requires public 
education, the practice of conservation behaviors and the development 
of effective public policy. The public display of animals plays an 
integral role in this conservation effort, helping to preserve these 
magnificent species for present and future generations. Through 
exhibitry of ecosystems, education and conservation programs we can 
establish a personal connection between visitors and the animals. These 
personal connections foster learning about how the behaviors of each 
and every one of us affect wild species and the habitats in which they 
dwell.
    The mission of educational exhibits and programming at AZA member 
facilities is to enhance the appreciation and understanding of animals 
and their ecosystems for our visitors. AZA members instill an awareness 
of ecological and conservation issues and a respect and caring for 
these animals and their environments. AZA members believe this respect 
engenders a strong, active commitment to species conservation and an 
understanding that each and every person can make a difference.
    The National Aquarium in Baltimore is at the forefront of 
conservation education through our variety of programs focused on 
environmental issues and actions that the public, staff, and volunteers 
can undertake to effect change. We research and design projects that 
restore, protect, and manage critical species and or ecosystem. 
Further, we have a captive breeding program of threatened or endangered 
species and monitoring of wild populations.
    The Aquarium's Chesapeake Bay Initiative has intensified its 
efforts to both educate visitors about the Chesapeake Bay and become 
involved in conservation actions. Through ACT! (Aquarium Conservation 
Team), we provide opportunities for volunteers to restore estuarine 
habitats around the Bay, learning first-hand about tidal wetland 
ecosystems by restoring habitat by planting beneficial marsh grasses, 
monitoring the function of created wetlands, including changes in water 
quality, evaluating habitat use of created wetlands by birds, fish, and 
other wildlife and coordinating restoration events for local community 
groups.
    We have been instrumental in developing programs in partnership 
with various local and Federal agencies at Ft. McHenry, Barren Island 
and Eastern Neck National Wildlife Refuge. Our projects demonstrate the 
successful coexistence of wildlife and industry in an urban 
environment.
    Knowledge acquired through research with animals in public display 
facilities, in tandem with field research, is another fundamental 
contribution to species conservation. Communicating this knowledge is 
one of the most effective means of ensuring the health of wild animals 
in this century. Much of this research simply cannot be accomplished in 
natural conditions.
    Tens of millions of dollars are being spent on research at and by 
AZA member facilities that is essential in understanding the anatomy 
and physiology of animals and in learning to better manage and assist 
threatened and endangered species. Additionally, many AZA facilities 
collaborate with researchers from colleges, universities, and other 
scientific institutions that conduct studies important to species 
conservation and health. Over the years, this body of work has 
contributed significantly to the present knowledge about the biology, 
physiology, reproduction, behavior and conservation of many species. 
These studies have led to improvements in diagnosing and treating 
diseases; tests for toxic substances and their effects on wild species; 
and other health advancements.
    In the field, AZA aquariums also have done a great deal of 
conservation work through such programs as sea turtle head-start, 
Project Seahorse, stock assessments of threatened fish and marine 
mammal species, and coral reef monitoring and protection in the Pacific 
Rim and Caribbean. In addition, AZA members were instrumental in 
rescuing and rehabbing thousands of endangered sea turtles confiscated 
from a Malaysian shipment headed to China.
    Research at the National Aquarium has come in many forms both in 
situ and ex situ. Animal research at the National Aquarium in Baltimore 
focuses on studies of new diseases, medical conditions and parasites as 
well as innovations in husbandry and breeding. Our successful studies 
include such topics as captive octopus lifecycles, elasmobranch 
biology, parasites collection science, coral reef culture studies and 
the salt marsh restoration studies. Most of our studies are done in 
collaboration with investigators from regional academic and government 
institutions and with colleagues from other aquariums. Continuous 
studies are presented at national and international conferences, and 
completed research is published in scientific journals.
    Over the past decade, AZA zoos and aquariums have come a long way 
and we realize that we still have a long way to go. Today, AZA-
accredited members are being transformed into centers for conservation 
in their communities educating the public, involving their communities, 
advancing scientific knowledge about the animals in their care and 
carrying out conservation programs worldwide. House Congressional 
Resolution 408 recognizes this transformation and we sincerely thank 
you for your strong support.
                                 ______
                                 
    Mr. Gilchrest. And you do have an extraordinary, wonderful 
facility there in Baltimore City that offers people, you know, 
just a great place to go and is just a great learning tool. And 
you have expanded it to many other portions of the Bay, which 
has been appreciated in your restoration efforts.
    Mr. Pittenger. Thank you.
    Mr. Gilchrest. Jim, I just--and you do a great job down 
there at the Salisbury Zoo.
    Mr. Rapp. Thank you, sir.
    Mr. Gilchrest. And that facility down there provides the 
same type of education and eye-opening wonders that the 
aquarium does in Baltimore, and it is just a precious place on 
that end of the shore.
    I just have a couple of--and we want to compliment you on 
your lifelong dedication to these issues, because it has a very 
positive impact on the policies that we develop up here, and 
certainly on the wildlife and their habitat.
    We are going to have a hearing, I believe it is July the 
11th, on the bushmeat crisis in Africa, and so we will keep you 
informed as we move through that process.
    And, just--I was wondering, since you are involved in it, 
Jim, if you could give us just a snapshot of the difficulty 
that that issue has in the expansive continent of Africa that 
is generally ripped by war, drought, and disease and political 
instability; and, also a comment you might give us on butterfly 
conservation difficulties that you might have with that in 
places like Mexico or Latin America, and what types of flowers 
we can plant in our back yard to help them on their route.
    Mr. Rapp. Excellent.
    Now, to answer your first question, the Bushmeat Crisis 
Task Force, I think, has a lot of conservation issues. The 
range of the animals that AZA and all the other partners are 
dealing with are in place and a lot of times, unfortunately, 
are politically unstable. There is war, there are many, many 
human concerns, but they also would be in the areas of highest 
diversity. So in these areas of Africa where, when a road goes 
into the forest and people start having easier access to 
getting into those areas, of course they have to feed 
themselves, and the most available source of protein, the most 
available source of food typically is the local wildlife.
    I think one of the issues of bushmeat is it is actually now 
a commercial enterprise. I remind you, years ago in Debo, the 
commercial or market duck hunters. You know, it is very hard to 
sustain wildlife populations when you are hunting beyond 
subsistence but actually doing it for commercial enterprise. 
And, again, compound that in a country where the government 
perhaps isn't as concerned as we may be in North America.
    But yet there are good people on the ground who we can work 
with through the other nongovernmental organizations. Of 
course, we partner with World Wildlife Federation and other 
groups like that who have people there, Conservation 
International. But a lot of the zoos and aquariums in AZA have 
people there as well. I mentioned in my testimony that there 
are several thousand field studies supported in 80 different 
countries. So, sometimes the zoo work that is done in those 
countries, it might be one of the oldest supported programs 
there.
    So I think that through the work we can do together, of 
course, in educating the American public, which has a lot they 
can offer through not only charitable giving, but even 
establishing sustainable development--I mean, of course, it may 
be difficult in some of these countries now, but you look at 
countries like Kenya who have really capitalized on the tourism 
market and can create jobs through our affection and passion 
for wildlife, there is light at the end of the tunnel, I think. 
But it is very complex, and I think that since 1999 the 
Bushmeat Task Force has done a lot of work, but it is still 
very hard to get, I guess, our heads around that.
    On butterfly conservation, I think it is very interesting. 
Once again, you mentioned Mexico and Latin America. I know the 
Salisbury Zoo, we have a partner, Pro Natura, sort of the 
Mexican Nature Conservancy, we have supported over the past few 
years, actually given financial contribution, supporting a park 
in the Yucatan called Punta Laguna, as known for its butterfly 
importance, but there are groups in Mexico and Latin America 
who are already on the ground doing this work.
    I think that is the key thing is finding the partners who 
are doing the work where we can help facilitate or improve the 
resources we have, the work they are doing. Also, through the 
Salisbury Zoo, many of us within AZA are members of a group 
called Zoo Conservation Outreach Group, which--ZCOG for short--
which basically is trying to get resources available to us, 
whether it is information, equipment, it could be technical 
journals that we have extra copies of, to the field so they can 
use those tools better to help improve their own facilities, be 
it a zoo or aquarium or a field program.
    And it is amazing, when you tap into what the AZA does--and 
their Website is excellent, aza.org, and through their annual 
report on conservation and science, and just see that--again, I 
think it is, what, 1,300 different programs that exist, many of 
which are in other countries, but a lot of which are right here 
in own back yard, which leads to what you can do in your own 
back yard for butterflies.
    At the Salisbury Zoo, and indeed in my own yard, we have a 
basescape project right near our new restroom facilities, very 
important to the zoo visit. But it is a lovely garden that was 
funded through the Chesapeake Bay Trust, and it is all native 
plants, many of which are suitable for birds, butterflies, and 
other animals to use, and they are beautiful. So, it is not 
just the wildlife value, but the aesthetic value that those 
plants can offer that I think is part of that thing that makes 
people feel good about helping wildlife, which it can start 
right in your own back yard. There is no question.
    Mr. Gilchrest. Thank you very much.
    Mr. Rapp. Thank you.
    Mr. Gilchrest. Mr. Pittenger, not to address a parochial 
question again, but I would certainly like to invite you along 
on that trip we take to Garrett Island to get your assessment 
of it.
    Mr. Pittenger. I would be very happy to do it. I know the 
area very well.
    Mr. Gilchrest. Great. And I appreciate the time I spent 
with you planting marsh grass in a number of places on the 
Eastern Shore. It is very helpful, and it brings a lot of 
people together. That makes more and more and more people aware 
of the critical nature of this fragile blue planet that we live 
on and have to take care of. So I look forward to that visit.
    I yield now to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    And first of all, I just wanted to congratulate the work of 
the AZA on tigers, rhinos, and elephants. I had the opportunity 
to go to Africa a couple years ago and observe many of the--how 
that issue is being worked out and how difficult it is, as you 
outlined. And I am pleased that we are having a meeting on 
bushmeat, although I thought at first it had political 
implications. I wasn't sure.
    You know--and also I want to thank the work of the AZA on 
the polar bear issue. I think that one--at least one of the 
bears is in Baltimore now.
    Mr. Pittenger. It is.
    Mr. Underwood. Probably rooting for the Orioles.
    Mr. Pittenger. He is the only one left.
    Mr. Underwood. Well, he is going to have a tough time.
    Mr. Pittenger, you mentioned in your testimony about the 
National Marine Fishery Service implementation of the Prescott 
Grant Program. Could you speak to that and tell us how that is 
going, how that is coming along?
    Mr. Pittenger. Which grant program are you--I mean, we have 
been involved with the National Marine and Fishery Service in a 
number of programs, through our shark tagging program and 
several others, that--
    Mr. Underwood. The emergency assistance program.
    Mr. Pittenger. I am sorry, I don't--is that in reference in 
my written testimony?
    Mr. Underwood. The Prescott Grant Program, a program that 
was --
    Mr. Pittenger. I am sorry. Yes. Now I know what you are 
talking about. Yes.
    The Marine Animal Rescue Program. I know it as the Prescott 
Program because Dr. Prescott was a mentor of mine, ran the 
aquarium, and was really the model for all the new modern 
aquariums.
    The stranding program, which is usually what it is called, 
is a very broad-based volunteer program. For instance, we have 
one--literally just one paid staff member, and then, of course, 
supported by veterinarians and everything that take care of the 
program. But the literally hundreds of animals that we deal 
with--and this goes--and this is on both coasts. It is a huge 
volunteer effort, because when these animals come ashore, they 
are in need of really 24-hour support and care. And it is such 
a wonderful program at many levels because the volunteers are 
involved.
    For instance, in Baltimore, the scientists and doctors at 
Johns-Hopkins come over and want to be involved with the animal 
care. And we learn--so it is not only a good animal welfare 
program as animals are taking care of, it is a wonderful 
volunteer program where people can become Ambassadors and go 
out and talk about it and the environments that these animals 
come from.
    But there are some very important fundamental basic 
research that goes on. For instance, we have a very rare pigmy 
sperm whale that--very little known about this animal in the 
wild--come ashore. We rescued it. It would not eat. We found 
out that it had ingested a significant amount of plastic bags 
thinking that they were jellyfish, and we--scientists from 
Hopkins removed them, and we released the animal. But during 
that time we found out that this little whale makes the 
highest-pitched sound of any animal ever recorded in the world. 
And, again, this information is very fundamental basic 
research.
    And I guess what I am saying is that the--and going back to 
the support--is that in many areas these programs are very much 
a shoestring operation. We have some facilities because we are 
an aquarium, a big aquarium, that others wouldn't have. But New 
Jersey--practically all the coastal States work very much on a 
shoestring. And so this is the kind of program where even a 
minimal amount of support that doesn't have to be huge dollars 
could really extend the work that these people do.
    So I think, from my standpoint of view, we are certainly 
happy to see the support there and utilize that, but I think it 
would be very important in magnifying this huge volunteer 
effort.
    Mr. Underwood. Thank you for that, and thank you for your 
work in that regard. I haven't been to the Salisbury Zoo, but I 
have been to the Baltimore Aquarium a couple of times, and it 
is a very fine facility and very educational, very well, 
thoughtfully and carefully laid out.
    Mr. Pittenger. Thank you.
    Mr. Underwood. And has a very strong educational component 
to it, and I think it is--from my estimation--probably the best 
aquarium I have been to. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Just a very quick follow-up, Mr. Pittenger. How did you 
know--what did you do to find out that that particular whale 
had plastic bags in his or her stomach, and then how did you 
get them out?
    Mr. Pittenger. The animal was acting normally except--in 
every way except it would not eat, and it was sort of kind of 
actually hunching up a little bit. And we suspected it, so we 
had a doctor who normally sticks an endoscope down human 
throats go down and look, and those little gizmos, you know, 
they have little pinchers on the end, and out it came. And the 
whale became known as Inky, because they put ink in the water 
to hide from predators.
    And actually the Coast Guard was very helpful. They did a 
little documentary film. And someday, if you wake up at 2 in 
the morning, on some cable channel you will see the story of 
Inky, the whale. I happened to see it; I was out of town, and 
saw it at 2 in the morning.
    Mr. Gilchrest. We will keep the TV on.
    So that little camera also pulled the plastic bag out?
    Mr. Pittenger. Yeah. It has little pinchers. It has a bunch 
of different devices on the end there.
    Mr. Gilchrest. That is good. That is wonderful.
    Well, Jim, David, thank you very much for traveling to 
Washington and giving us your testimony.
    Mr. Pittenger. I look forward to the trip.
    Mr. Gilchrest. Yes, sir.
    Mr. Rapp. Thank you very much.
    Mr. Gilchrest. The hearing is adjourned.
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]

    [A letter submitted for the record by Virginia R. Busby, 
Department of Anthropology, University of Virginia, 
Charlottesville, Virginia, follows:]

Statement of Virginia R. Busby, Department of Anthropology, University 
                              of Virginia

The Archaeological Importance of Garrett Island
    Garrett Island's archaeological importance derives from the 
convergence three factors of historical and cultural significance at 
local, state, regional, and national levels. These include: its unique 
environmental setting and geological characteristics; its witness of 
the majority of regional human history; and its association with 
important persons and events in state, regional, and national history, 
particularly the early colonial years. In addition to its pre-Columbian 
history reaching back over 5000 years, the island figured prominently 
in native/colonial interaction and subsequent colonial settlement. The 
establishment of a plantation and agricultural pursuits characterize 
the island's 18th through 19th century history. Twentieth century uses 
include those related to the fishing industry, ice packing, military 
activity, transportation, and recreation. The archaeological importance 
of the island has been recognized for over forty years, with minor 
surveys undertaken to investigate the physical manifestations of its 
entire range of history.
    The island's unique physical characteristics, combining Piedmont 
outcrops and Coastal Plain sands, have been described as ``little 
Maryland,'' presenting a unique microenvironment encompassing the 
state's geologic variation. Significant contributions to our 
understanding of human/environmental interaction can be gained from 
studying how humans made use of the different resources offered by this 
varied geology.
    Additionally, archaeological study of the long trajectory of human 
occupation of Garrett Island, dating as early as 6000 B.C., can inform 
our understanding of the human/land interface through changing 
environmental circumstances over a significantly long period of time.
    In addition to the island's unique physical characteristics is its 
geographic position at the intersection of the Susquehanna River and 
Chesapeake Bay. Archaeological investigations of human use of this 
special natural environmental setting would contribute unique 
information to our understanding of regional history. In addition, the 
island's location within a major thoroughfare of human travel, presents 
an opportunity to study cultural interaction associated with such a 
position. This includes over five thousand years of pre-Columbian 
travel within this waterway, a major artery in the continent-wide trade 
and social networks of Native Americans.
    The island also played a significant part in the ventures of 
colonial explorers, traders, militaries, and settlers plying the 
Susquehanna and Chesapeake Bay waters and was important to the 
subsequent use of this waterway from the 18``' century to the present 
day. In addition to maritime travel, the island bears significance in 
the history of transportation in Maryland with important rail and 
roadway arteries spanning its surface.
    In addition to those that traveled through, stopping at the island, 
several different Native American groups called this area home and made 
frequent use of Garret Island. For them the island served a variety of 
uses including hunting and fishing, camping, a meeting place, and for 
trading. Positioned in an area of intersecting group territories, the 
island presents a unique opportunity to study human interaction, 
differential land and resource use, and different material culture 
traditions. In addition, promontories and islands are known places of 
high symbolic importance in Native American cosmology, and thus, the 
island with its basaltic outcrop may be able to shed light on this 
aspect of regional history and culture as well.
    One of the most significant aspects of Garrett Island is the 
convergence of significant aspects of colonial history. Garrett 
(earlier known as Palmer's) Island was among the earliest northern 
extensions of the Virginia colony, being patented in the 1620s by 
Edward Palmer. In the 1630s, William Claiborne established a trading 
post here after receiving the island as a gift from the Susquehannock 
Indians. The Maryland colony subsequently took possession of the island 
in the 1640s and erected Fort Conquest for protection against Indian 
attacks.
    Beyond the archaeological record it contains, the island it itself 
an artifact-an integral part of the natural and cultural landscape-
bearing local through national level historical and cultural 
significance. For these reasons, Garrett Island serves as a point of 
departure into Maryland's, the region's, and the nation's history and 
future and merits study and preservation within its geological and 
cultural setting.
History and Future of Archaeology at Garrett Island
    The history of archaeological investigations at Garrett Island 
includes limited survey work conducted over the past forty years by 
avocational and academic archaeologists. Systematic investigation of 
the Native American occupations of the island were initiated in the 
1960s and 70s by Paul Cresthull and George Reynolds of the 
Archaeological Society of Maryland. They identified several occupations 
spanning the Late Archaic period (circa 3500 BC) through the Late 
Woodland (circa A.D. 1600). In 1984, Eric Klingelhofer, a graduate 
student at Johns Hopkins University, initiated a survey to identify 
Claiborne's trading post and Fort Conquest. Although this initial 
survey failed to locate the 17th century occupations, it did identify 
several 18th and 19th century ruins.
    With the acquisition of the island by the Cecil County Land Trust, 
the Northern Chesapeake Chapter of Archaeological Society of Maryland 
under the direction of PIs Virginia Busby and Robert Wall, and chapter 
directors William McIntyre and Dan Coates, have initiated a multi-year 
project at the island geared toward providing a management plan for 
guiding future research and preservation efforts. To this end, a grant 
from the Maryland Historical Trust is being sought to fund further 
survey work toward the preservation management plan for the next year.
    With the increased interest on the island, the Northern Chesapeake 
Chapter has also planned a spring symposium for Maryland Archaeology 
Month that will present the status of their work and contextualize the 
results within broader regional culture and history.
Lower Susquehanna Heritage Greenway, Inc. (LSGH)
    Goals Checklist
    Goals
    <bullet> LEncourage a greater understanding of the LSHG's 
historical, cultural, natural and recreation attributes through 
interpretation and education.
    <bullet> LEnable visitors to have greater access to an 
understanding of the LSHG's heritage.
    <bullet> LLink small communities, as well as recreational and rural 
areas through scenic byways, water access routes, and pathways.
    <bullet> LFoster linkages among and between heritage attractions 
that encourage visitors to explore, linger, and sample the diverse 
offerings of the LSHG.
    <bullet> LIncrease the economic activity associated with tourism, 
creating opportunities for small business development, job growth, and 
a stronger tax base.
    <bullet> LEnhance economic development and tourism while expanding 
recreational opportunities in the LSHG consistent with its heritage 
resources.
    <bullet> LBalance the impact of tourism activity with the quality 
of life enjoyed by residents.
    <bullet> LEncourage the preservation and conservation of heritage 
resources and natural features to protect the LSHG's vital ecological 
functions and many abundant resources.
    <bullet> LEncourage the adaptive reuse of historic structures and 
sites, conservation of natural areas important to the LSHG's character 
and environment, and preserve the continuity and authenticity of 
cultural arts, heritage attractions, and indigenous regional 
attractions.
    <bullet> LEnhance the visitor appeal and enjoyment of the LSHG's 
history, culture, natural environment, and scenic beauty by improving 
the overall ``product'' and visitor experience.
    <bullet> LStrengthen public / private partnerships that will 
interpret, communicate, publicize, protect, and restore the heritage of 
the LSHG and accomplish these goals via partnerships among local and 
regional leaders, nonprofit organizations, businesses, and state 
agencies.
    The above criteria will be used to evaluate and select projects for 
funding on a competitive basis.
                            CECIL LAND TRUST
                 135 east main street, elkton, md 21921
                              410-392-9667
    Can an island in the Susquehanna River be permanently protected 
through a community effort, remain open for public use and support a 
successful comprehensive historical/ecological education program?
    Those who participated in a field trip to Hiawatha Island, 
Apalachin, NY on May 7, 2002 were able to see first hand that it is 
entirely possible with broad-based community support. The trip included 
members of the Lower Susquehanna Heritage Greenway, the Paw Paw Museum, 
the Archeological Society of the Northern Chesapeake, the Fair Hill 
Nature Center, Maryland Environmental Trust, Maryland Dept. of 
Transportation, an environmental educator from Harford County and the 
Cecil Land Trust.
    Hiawatha is comparable to Garrett Island, although it is smaller at 
112 acres and is of glacial creation. Its history of occupation and 
ownership patterns are inclined to farming and recreation. The Native 
American Onondaga tribe used it as a trading site, it changed ownership 
a number of times and was farmed until the 1960s. The Owego Steamboat 
Company built a resort hotel on the island in 1876. The hotel served as 
a summer home for several owners, but was razed in 1932. In 1989, a 
nonprofit community group purchased the island at a public auction for 
$386,100. The other interested bidders were a gravel pit operator and 
hotel resort developer.
    The community group raised money in a variety of ways, first by 
mortgaging their homes then by collecting donations over a five year 
period to make their mortgage payments. They received assistance from 
the press, large corporations, foundations and many concerned citizens. 
Donations ranged from $1 to $50,000. Other fund raising activities 
included car raffles, purchasing a square foot of island and fund 
raising breakfasts and dinners held on the island.
    After the island was paid for, a conservation easement was placed 
on the island with the Finger Lakes Land Trust and the island was then 
donated to the Fred L. Waterman Conservation Education Center.
    Our host/guides for the day were Fran Dunbar, president of the 
Waterman Center board and head of the community group (Owego Historic 
Marketplace) that purchased the island in 1988 and Scott MacDonald, 
Waterman Center's executive director.
    Since our group consisted of conservationists, naturalists, 
educators and anthropologists, Scott gave us a general tour of the 
Waterman Center (a converted church) and described their educational 
programs. They have three educational sites, Brick Pond, a 30 acre 
wetland, Apalachin Marsh, one of New York's best bird watching sites, 
and Hiawatha Island. Scott discussed the Center's arrangements with, 
the business community in supporting public school outdoor education 
and their fund raising activities, including their first road rally to 
be held this year.
    Fran Dunbar joined us at the landing for the shuttle to the island. 
A nine passenger pontoon boat, with a Coast Guard approved captain, is 
used to ferry people back and forth. Currently the boat docking 
facilities are being upgraded. The Susquehanna flows from east to west 
between Binghamton and Owego. The island has a high point of 50 feet on 
the east side while the west end is lower and within the 100 year flood 
plain. The island supports a herd of deer and is used by river beaver 
and waterfowl. The boat captain feels that the river quality has 
improved over the years and people are now able to catch an occasional 
trout.
    Trails on the island are marked by color and have interpretive 
sites along the way. Historical sites including home, hotel, farm and 
dairy barn sites have been cleared mainly by volunteers. A springhouse, 
shed and icehouse have been preserved. All interpretive sites have 
signage. Scott explained how the sites related to different activities 
and described their ``A Walk Thru Time'' event. The island also 
includes an outhouse and heliport (it's never been used) for 
emergencies.
    There is a picnic grove at the farm site surrounded by farm 
machinery from different time periods. A fund raising dinner is held at 
the site. We had a picnic lunch while Fran described the effort of the 
community group to protect the island. Fran and Scott were the perfect 
hosts sharing three hours of their time and answering our more 
technical questions on the ways in which they make their preservation/
conservation education program work. For more information on the 
Center's programs or mission, visit www.watermancenter.org.
    The similarities between Hiawatha and Garrett Island cannot be 
overlooked or understated. It would behoove the Cecil Land Trust and 
its community partners to continue to look to our sister island and its 
community for advice and guidance.

                                   - 

</pre></body></html>
